<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                

                         [H.A.S.C. No. 115-109]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

                           NAVY AND AIR FORCE

            DEPOT POLICY ISSUES AND INFRASTRUCTURE CONCERNS

                               __________

                              HEARING HELD
                             JUNE 14, 2018


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-382                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                                     
  


                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                Andrew Warren, Professional Staff Member
                Brian Garrett, Professional Staff Member
                          Megan Handal, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Levy, Lt Gen Lee K., II, USAF, Commander, Air Force Sustainment 
  Center, Air Force Materiel Command, U.S. Air Force.............     3
Moore, VADM Thomas J., USN, Commander, Naval Sea Systems Command, 
  U.S. Navy......................................................     4
Peters, VADM G. Dean, USN, Commander, Naval Air Systems Command, 
  U.S. Navy......................................................     6

                                APPENDIX

Prepared Statements:
    Levy, Lt Gen Lee K., II......................................    44
    Moore, VADM Thomas J., joint with VADM G. Dean Peters........    58
    Wilson, Hon. Joe.............................................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Carbajal.................................................    69
    Mr. Courtney.................................................    69
   
.   
   NAVY AND AIR FORCE DEPOT POLICY ISSUES AND INFRASTRUCTURE CONCERNS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                           Washington, DC, Thursday, June 14, 2018.
    The subcommittee met, pursuant to call, at 9:02 a.m., in 
Room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Ladies and gentlemen, good morning. I call to 
order the House Armed Services Subcommittee on Readiness.
    I would like to welcome everyone to this morning's hearing, 
and would like to thank our panel of witnesses for being here 
today to discuss the defense organic industrial base, and the 
significant role it has in maintaining and restoring readiness 
back to our armed services.
    This hearing will specifically focus on the current state 
of the United States Navy and the United States Air Force depot 
policy issues and infrastructure concerns. Our shipyards, fleet 
readiness centers, and air logistics complexes are critical in 
America's ability to project power and to properly train and 
equip our warfighters. This sustainment industrial base 
provides the backbone for the military to respond to a variety 
of contingencies, surge capacity, and provide unique solutions 
to requirements. Our readiness recovery is fragile and it is 
important to understand exactly what is in jeopardy.
    During this hearing, I would like for you to help answer 
the basic question: In terms of risk, what does it mean to our 
national security, particularly our sustainment industrial 
base, to have ships moored to the pier or sitting in the dry 
dock for extended periods of time, or have aircraft waiting for 
depot maintenance?
    The depots saw diminished workloads when major combat 
operations ended in Iraq and Afghanistan. This decreased 
workload, coupled with the unpredictable budgets and continuing 
resolutions, forced the services to divest a portion of the 
technically skilled workforce and limit reinvestment in depot 
facilities. We know these variables have significant effects on 
the people, depot rates, and long-term organic industrial base 
viability.
    We are particularly interested in your infrastructure 
concerns and proposed solutions. Other common issues I am aware 
of across military depots relate to the carryover, 
infrastructure strategic planning, and civilian hiring.
    We want to hear what the issues are from your perspective 
and how they are impacting your mission. It is our 
responsibility, as members of this subcommittee, to understand 
the readiness challenges of our armed services, and how the 
resources and authorities provided impact capabilities this 
Nation needs.
    Before I introduce the witnesses, I turn to the ranking 
member, Congressman Madeleine Bordallo, the distinguished 
gentlelady from Guam, for opening comments she would like to 
make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 43.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman. And I 
thank all of our witnesses for being here this morning.
    I think that we all agree that when the American public 
thinks of the term ``national defense,'' they envision our 
proud service members stationed around the world, and the 
equipment, the ships, tanks, and aircraft that we supply so 
they can carry out their missions.
    What is not often thought of are the capabilities needed to 
maintain these assets, especially the depots and shipyards of 
the organic industrial base that play a critical role in the 
readiness of our military forces.
    Without properly maintained ships, submarines, aircraft, 
and weapon systems, our forces cannot perform necessary 
training required to build readiness or meet the operational 
requirements that are placed upon them. So I am concerned that 
in a year where readiness has been cited as the Department's 
top priority, the Department's budget request only supports 93 
percent of the Air Force depot maintenance requirements and 92 
percent of the Navy's aviation depot maintenance requirement.
    When questioned about why these accounts were not funded to 
100 percent of the requirement, the Department stated that the 
accounts were funded to the maximum executable rate. Thus far, 
no analysis has been shared with the committee on how the 
maximum executable rate was calculated or what the limiting 
factors are to increasing execution rates.
    I have long stated that just as important as it is to 
provide our service members with new, updated equipment, we 
must fully maintain the assets that we already have. And I hope 
that our witnesses can share their perspectives on this issue 
today.
    Your workforce is the backbone of your depot operations. 
This diverse assembly of people possess invaluable skills and 
expertise that must be cultivated, taking years of schooling 
and experience to acquire. Keeping a workforce of such caliber 
requires constant effort to hire, train and retain. Past NDAA 
[National Defense Authorization Act] provisions have granted 
additional authorities, allowing depots to expedite hiring, and 
I look forward to hearing if these provisions are sufficient or 
whether additional changes are necessary.
    I also hope that the witnesses will provide their 
perspective on the continued need and support provided by non-
DOD [Department of Defense] shipyards and depots, especially 
with growing requirements and deferred maintenance backlogs.
    Without our shipyards and depots, our ability to ensure the 
safety of our Nation and pursue our national interests are 
severely impacted. Gentlemen, your shipyards and depots must 
accomplish their missions. If we are going to rebuild 
readiness, we need to ensure that the depot maintenance 
accounts are fully funded to meet the requirement. If there are 
policies, authorities, workforce, infrastructure, or other 
challenges that are impediments to increasing the execution 
rates of the depots, this subcommittee needs to hear about 
them.
    So I, today, this morning, look forward to hearing your 
testimony on the challenges that our shipyards and depots are 
experiencing in personnel, operations, and infrastructure 
management, and how this committee can help you address them. 
So thank you.
    And with that, Mr. Chairman, I yield back.
    Mr. Wilson. And thank you very much, Congresswoman 
Bordallo.
    We are grateful to recognize the witnesses here today. We 
thank them for taking the time to be with us. Welcome, Vice 
Admiral Thomas Moore, Commander, Naval Sea Systems Command, 
U.S. Navy; Vice Admiral Dean Peters, Commander, Naval Air 
Systems Command, U.S. Navy; and Lieutenant General Lee Levy, 
Commander, Air Force Sustainment Center, U.S. Air Force.
    Before we begin, I would like to remind our witnesses that 
your written statements have been submitted for the record and 
ask that you summarize your comments to 5 minutes or less.
    As a reminder to our members, we will adhere to the 5-
minute rule for questions by our witnesses, and it will be ably 
controlled by our professional staff member, Drew Warren.
    At this time, we would proceed with General Levy.

STATEMENT OF LT GEN LEE K. LEVY II, USAF, COMMANDER, AIR FORCE 
 SUSTAINMENT CENTER, AIR FORCE MATERIEL COMMAND, U.S. AIR FORCE

    General Levy. Good morning, Chairman Wilson, Ranking Member 
Bordallo, distinguished members of the subcommittee. Thank you 
for the opportunity to testify along with my joint partners on 
the readiness of your United States Air Force. It is a real 
privilege.
    On behalf of our Secretary, the Honorable Heather Wilson, 
and our Chief of Staff, General Dave Goldfein, thanks for your 
support and demonstrating commitment to our airmen, our Air 
Force civilians, families, and veterans, particularly on this 
Flag Day.
    Without pause, your United States Air Force continues to 
deliver global vigilance, reach, and power for our Nation. We 
are always in demand and we are always there. We have supported 
joint and coalition forces throughout every operation, and we 
have secured our homeland through continuous surveillance and 
air defense and nuclear deterrence.
    We have been in nonstop combat, your Air Force, for 27 
years. We have done all this with a force that is 30 percent 
smaller than at the outset of Desert Storm, and with aircraft 
and infrastructure that continues to age and present new 
challenges.
    But the 43,000 total force airmen of the Air Force 
Sustainment Center, Active Duty, National Guard, Reserve, and 
civil servants, operating from 74 locations across the globe, 
are amazing and they continue to seek new and innovative ways 
to get the job done.
    Make no mistake, your United States Air Force is ready to 
fight tonight, but I am concerned about our ability to sustain 
our Air Force to fight tomorrow. Threats to the Nation and our 
vital national interests continue to evolve, adapt, and present 
formidable challenges that threaten us and our allies.
    We have returned to an era of great power conflict. That 
competition challenges our security and prosperity. As we 
develop advanced air, space, and cyber capabilities for 
tomorrow, we must continue to adapt our readiness, sustainment, 
and logistics enterprises as well.
    The organic industrial base, simply put, is the Nation's 
insurance policy. It underpins our readiness to fight not only 
tonight, but to be prepared to fight and sustain into the 
future.
    The Air Force Sustainment Center underwrites this for our 
Air Force, our joint partners, and allies. Our command has 
responsibility for nuclear sustainment and supply chain 
management for two-thirds of the Nation's strategic nuclear 
triad. Nuclear deterrence operations are the bedrock of our 
national security. We operate a global logistics and 
sustainment network, a global supply chain, three Air Logistics 
Complexes, airpower factories, if you will.
    Our command also has the responsibility to set, open, and 
sustain theaters in time of peace and conflict with weapons 
systems that are, on average, approximately 28 years old. In 
short, we are a $16 billion a year joint, interagency, and 
coalition readiness engine.
    The defense industrial base is brittle. We find an ever-
diminishing vendor base for sustaining our platforms. The 
workforce underpinning the industrial base is also brittle, and 
we face increasing challenges recruiting the kind of talent our 
force simply must have for the future. A fifth-generation Air 
Force must have a fifth-generation workforce.
    I could go on and talk about this at length, and I look 
forward to your questions, but, again, it is a real honor and a 
privilege to be with you, and I yield my time back. Thank you.
    [The prepared statement of General Levy can be found in the 
Appendix on page 44.]
    Mr. Wilson. And thank you very much, General.
    We now proceed to Admiral Moore.

 STATEMENT OF VADM THOMAS J. MOORE, USN, COMMANDER, NAVAL SEA 
                   SYSTEMS COMMAND, U.S. NAVY

    Admiral Moore. Thank you, Mr. Chairman. Mr. Chairman, 
Ranking Member Bordallo, distinguished members of the 
committee, I appreciate the opportunity to testify today to 
discuss Navy readiness and, in particular, readiness in our 
depots.
    Before I begin, I would like to thank the Congress for your 
support of the Bipartisan Budget Act of 2018 and the fiscal 
year 2018 Consolidated Appropriations Act. This legislation 
provides the predictability and stability in funding that 
allows us to continue the work we started in fiscal year 2017 
to restore the Navy's organic industrial base.
    At any given time, the Naval Sea Systems Command has under 
its care approximately one-third of the battle force as they 
undergo maintenance and modernization. For that reason, 
NAVSEA's number one priority remains the on-time delivery of 
ships and submarines to the fleet for both new construction and 
maintenance availabilities.
    NAVSEA is executing a number of initiatives to improve its 
on-time performance, starting with growing our organic 
workforce. Between the beginning of fiscal year 2013 and today, 
the four naval shipyards have hired 21,000 people and are on a 
path to reaching our goal of having 36,100 full-time shipyard 
employees by the end of fiscal year 2019.
    The growing and better trained workforce is beginning to 
have a positive impact. In 2017, all four aircraft carrier 
availabilities were completed on time, and we significantly 
reduced the delays in delivery of our submarine force. That 
trend continues in 2018. More work remains, but we are on the 
right track.
    Prior-year capacity and limitations and the overall 
priority of work towards our ballistic missile submarines and 
aircraft carriers resulted in our attack submarines absorbing 
much of the delays, causing several submarine maintenance 
availabilities that were originally scheduled to last between 
22 and 25 months to require 45 months or more to complete.
    This situation reached a boiling point in the summer of 
2016, when, because of a lack of capacity in our public 
shipyards, the Navy decided to defer the scheduled maintenance 
availability of USS Boise that will take it offline until 2020. 
Ultimately, Boise's availability was contracted to the private 
sector and will begin in January 2019.
    Going forward, the Navy will take a longer term view as we 
consider the private sector for future maintenance work during 
peak workload periods as both relief to our naval shipyards and 
to ensure we maintain the health and proficiency of the 
private-sector nuclear industrial base.
    People alone will not provide the throughput and 
productivity needed to meet the maintenance and readiness 
requirements of today. As outlined in our recent report to 
Congress on the naval shipyard infrastructure optimization 
plan, we must also make substantial investments in our foreign 
nuclear-capable shipyards to ensure we have 21st-century 
shipyards ready for the challenges of maintaining a growing 
fleet.
    This 20-year plan includes repairing and upgrading our 
public shipyard dry docks to accommodate future Virginia-class 
payload module submarines and new Ford-class carriers, 
recapitalizes equipment to replace aging equipment with up-to-
date technology, and optimizes the layout of the shipyard by 
moving and upgrading facilities closer to actual work. We look 
forward to working with Congress in the execution of this plan.
    The challenges facing our private sector nonnuclear surface 
ship repair base are similar to those seen in our naval 
shipyards, with the private sector also facing capacity and 
workload challenges they need to make--and the need to make 
investments to upgrade facilities, equipment, and dry docks.
    A lack of stable and predictable budgets over the past 10 
years has had an even bigger impact on our private sector ship 
repair facilities and is a core reason why the capacity of our 
private sector today is about 75 percent of our workload 
requirements, with the net result being the late delivery of 
our ships for maintenance availabilities.
    The Navy is committed to working collaboratively with 
industry to provide them a stable and predictable workload in a 
competitive environment, moving forward, so they can also hire 
the workforce and make the investments necessary to maintain 
and modernize a growing nonnuclear fleet.
    We are as dependent on their capabilities and capacity as 
we are on the public depots. As we build the 355-ship Navy, we 
must have the maintenance capacity and infrastructure needed to 
ensure our growing fleet is maintained and modernized on time 
and on budget to deliver forward-deployed combat-ready ships.
    Our ongoing efforts to hire more people and invest in our 
naval shipyards, combined with the Navy's continuous dialogue 
with industry, lays the foundation required to maintain today's 
force, while also looking to the future.
    We have challenges ahead, but we are on an improving trend 
and it will ensure we have the capacity today and into the 
future to maintain and modernize our Navy.
    I look forward to your questions. And I yield back my time.
    [The joint prepared statement of Admiral Moore and Admiral 
Peters can be found in the Appendix on page 58.]
    Mr. Wilson. Thank you very much, Admiral Moore.
    We now proceed to Admiral Peters.

  STATEMENT OF VADM G. DEAN PETERS, USN, COMMANDER, NAVAL AIR 
                   SYSTEMS COMMAND, U.S. NAVY

    Admiral Peters. Good morning. Chairman Wilson, Ranking 
Member Bordallo, distinguished members of the subcommittee, 
thank you for the opportunity to appear before you and discuss 
naval aviation readiness and the health of our organic 
industrial base.
    Although I have only been on the job 2 weeks, I was 
actually pleased to see this hearing on the schedule, because 
NAVAIR [Naval Air Systems Command] industrial workforce, our 
civilian sailors, and our infrastructure are my top priorities 
for focus and attention.
    In conjunction with the air boss, Vice Admiral Miller, and 
Deputy Commandant for Aviation Lieutenant General Rudder, we 
are aggressively stabilizing naval aviation readiness for the 
present and starting to put in place long-term strategies for 
lasting health and improvement.
    In regard to the current status, we are making definite 
progress, but there's still a long way to go. One of the most 
critical components of readiness, as has been mentioned, is our 
organic maintenance/repair capability. That is both our 
intermediate-level maintenance and our depot-level maintenance. 
The depot industrial base, which we call Fleet Readiness 
Centers [FRCs], is critical to our overall health and 
wholeness.
    I am pleased to report on fiscal year 2017. For the first 
time in over 5 years, our FRCs were largely able to meet the 
fleet demand for production of aircraft and engines. We 
produced 485 of 487 expected aircraft, including 69 F-18 A-D 
and we delivered more than the required number of F-18E and F. 
This was done while also improving the turnaround time by 5 
percent, which you can imagine is critical to being able to 
produce those numbers.
    Over the last 2 years, we have also been able to reduce the 
backlog of aircraft that need in-service depot-level repairs. 
These are the repairs that are done at the field. This was 
reduced by about 25 percent, which means that we put more 
aircraft back into the hands of the warfighters.
    The improved performance in these two areas are the good 
news. We have got to keep this production going. The not-so-
good news is that our FRCs are not performing as needed in the 
area of component repair and overhaul, which is about 20 
percent of our FRC workload and includes over 50,000 parts.
    To date, in fiscal year 2018, we are lagging this 
production by about 20 percent, which is better than previous 
years but still unacceptable. Areas that we are working on are 
workforce hiring, developmental training, quality 
manufacturing, all the things you would think of, and also 
infrastructure upgrades. It is this last area where we need to 
concentrate.
    Thanks to an infusion of repair funds in fiscal year 2018, 
we are able to schedule repairs on our highest priority 
equipment. As an example, let me just mention a water tower 
that we have down in FRC East in Cherry Point that is used for 
the qualification of nozzles on our T-64 engines. This is a 50-
year-old piece of equipment that was continually unreliable, 
and for several months in 2017, we were unable to repair T-64 
engines.
    With this infusion of cash, we were able to develop a 
redesign and requalify that piece of equipment. Now the next 
step is actually to modernize that piece of equipment and go 
from a water tower type of process, which we are--I think we 
are the only ones that still use that technology, to an airflow 
type of qualification for our engine nozzles.
    So we absolutely appreciate the fiscal year 2018 increase. 
It is going to go towards those most critical components which 
are greater than 25 years old on average. But also of 
importance is our facilities that have an average age of 58 
years. More than half of our facilities are greater than 67 
years old.
    A few examples. We have no air conditioning down in our 
avionics maintenance facility in FRC Southeast in Jacksonville. 
That one actually, I think, is going to be funded in 2019, so 
we are looking forward to that one. But we also still have a 
paint and strip facility in Norfolk that has to shut down every 
time it rains. We have an environmental control ventilation 
system in FRC Southwest that fails on a weekly basis.
    So these are the type of things that our artisans are 
working around. Our future investments in facilities and 
equipment modernization will be vital to ensure that our 
organic industrial facilities have the capability and capacity 
to not only improve current performance but to support the next 
generation of aircraft and engines.
    So, similar to the Navy shipboard optimization plan, Naval 
Aviation will put forward a modernization plan for our fleet 
readiness centers. We are starting this year with a 
comprehensive baseline of our facilities, test equipment, 
tooling.
    Naval Aviation looks forward to working with this 
subcommittee and the larger Congress to achieve this end-state 
and we very much appreciate your continued support of our 
sailors and Marines. I look forward to your questions.
    Mr. Wilson. Thank you very much, Admiral.
    And we will now proceed with a round of questions. And 
again Drew Warren will be maintaining the--strictly, beginning 
right now, the 5-minute rule.
    And for Vice Admiral Peters and Lieutenant General Levy, is 
there a backlog for depot maintenance [on any] airframe at 
either the Fleet Readiness Centers or the Air Logistic 
Complexes? If so, how long, what is the operational impact, 
what is the cause, and what is the fix?
    General Levy. Thank you, sir. So, I will answer on behalf 
of the Air Force.
    And to your question is there a backlog for airframe depot 
maintenance, the Air Force answer is no. Our system of how we 
perform depot maintenance and high-level overhaul requires that 
the airplane come in regularly, get serviced, and go back out. 
So we have maintained a steady rhythm of aircraft; and I would 
also offer components of the engines because the airplane needs 
all the parts to be complete, obviously. We have maintained 
that steady flow of aircraft and components throughout the many 
decades in the past.
    Where we have seen some challenges, however, has been in 
the supply chain that feeds some of that. That is a bit--has 
some challenges inside of it, with a small industrial base, in 
some cases, some small vendors. And perturbations in funding 
that have occurred through CRs [continuing resolutions] and 
sequestration have exacerbated that.
    But to your direct question about delays, the answer is no. 
In fact, we have actually used some of our capacity to help our 
shipmates to my left. So when we talk about depots and the 
industrial base, we often think of it as service-unique; Air 
Force does Air Force, Navy does Navy, et cetera. But we are--
our destinies are interconnected.
    So, for example, sir, I--in my command, I have what you 
commonly hear called the boneyard in Davis-Monthan--at Davis-
Monthan Air Force Base in Arizona. I call it a national 
reservoir of aerospace capacity, frankly. So we have pulled F-
18s out and restored them to service to help our shipmates in 
the Navy--well, the Department of the Navy with their readiness 
challenges. At our Air Logistics Complex in Warner Robins at 
Robins Air Force Base in Georgia, we are actually making center 
wing spars for F-18s.
    And that is an example of how our enterprise interconnects 
to try to help each other out, because even though we budget 
separately as services, we fight together as a joint team. And 
an impact on Navy readiness is an impact on Air Force combat 
effectiveness. Thank you, sir.
    Mr. Wilson. And--and it is really encouraging to hear the 
inter-service cooperation. This is not always recognized, so 
thank you very much.
    General Levy. Thank you, sir.
    Mr. Wilson. Admiral.
    Admiral Peters. Yes, sir. I agree completely with General 
Levy, and especially about the interconnectedness of our 
services. And we do rely on each other for capability that is 
common, and especially across the components and in our 
airframes that are common. For instance, our E-6s are repaired 
at Tinker Air Force Base. Our KC-130Js are repaired at Hill Air 
Force Base. And so we have a very close relationship with the 
Air Force.
    In terms of backlog, we do not have a substantial backlog 
on the aircraft and engine side. We have eliminated that, over 
the last couple years, in rightsizing our work in progress. On 
the component side, we do have aged work in progress [WIP], and 
the impact of that is it is a financial impact, for one thing, 
on the depots. And bringing down that aged WIP is incredibly 
important to us.
    The financial impact is we end up working on components 
that may have been inducted several years previously, and now 
we are working on a different rate structure. So that is a--a 
focus area for the--the Navy depots.
    And I believe I have answered your questions.
    Mr. Wilson. You--you certainly have, and thank you both.
    And, Admiral Moore, how are we posturing shipyards so that 
they will be able to adapt to future challenges from technology 
and workforce perspectives?
    Admiral Moore. Yes, sir, and thank you for the question. I 
think the naval shipyard optimization plan that we submitted to 
Congress this year addresses exactly your question, and--we 
looked at the naval shipyards, you know, many of them over 200 
years old.
    You know, we recognized that these shipyards, which were 
set up initially to build ships, were not positioned properly 
to repair ships, going into the future. And some of that was 
just the infrastructure was degraded, and some of it was that, 
from a technology standpoint, we didn't have the technology we 
needed in terms of infrastructure, IT backbones, et cetera.
    So the naval shipyard optimization plan is going to--is the 
Navy's plan to address your concerns, going forward. It is a 
20-year plan, $21 billion over 20 years that will get after all 
four naval shipyards. And, as result of that, you know, we will 
see increased productivity in--going forward, to support the 
355-ship Navy.
    Mr. Wilson. Super. Thank you, and it is very appropriate.
    And we now proceed to the beautiful territory of Guam, the 
site of the Guam Naval Shipyard.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    My question is for Admiral Moore. The fiscal year 2018 NDAA 
directed the Navy to complete a review of depot-level ship 
repair in the Western Pacific. Is this review nearing 
completion? And when does the Navy expect to submit it to the 
committee?
    Admiral Moore. Thank you for the question, ma'am. Yes, that 
study is underway. That is being led by the Pentagon. We expect 
to have that completed before the end of the fiscal year.
    Ms. Bordallo. Before the end of----
    Admiral Moore. This fiscal year.
    Ms. Bordallo. I see. All right. And we can depend on that, 
right?
    Admiral Moore. Yes, ma'am.
    Ms. Bordallo. Okay.
    My second question is for both Admiral Moore and General 
Levy. Can you discuss the benefits permanent civilian personnel 
provide as part of your workforce at your depots and shipyards, 
and suggested strategies for continuing to incentivize and 
retain this part of your workforce?
    Admiral Moore. We--since I have the microphone on, I will 
go ahead and continue. One, our civilian workforce is the 
backbone of our ability to get the depot maintenance done. The 
36,100 people in our public shipyards are primarily civilian 
personnel. I mean, we don't--and I--at NAVSEA, we are quick to 
distinguish them as shipmates, as well. There's no difference.
    What we need to do to--is we need to continue to hire. We 
need to continue to support pay raises, where those are 
appropriate. We need to upgrade our infrastructure and 
facilities. They are not looking for a Taj Mahal to work in, 
but they certainly want facilities that, you know, are clean 
and are air-conditioned, et cetera. And that is not the case in 
all of our depots today. I think the naval shipyard 
optimization plan addresses that.
    And, as far as hiring authorities, you know, the hiring 
authorities that you gave us for expedited hiring is crucial, 
and we appreciate that hiring authority going forward.
    I would say there's one thing that would help us there. You 
know, we have a 180-day cooling-off period for retired military 
personnel before they can enter our depots. There's an 
opportunity, as we try to hire them. We are in a competition 
for talent, not only in our naval shipyards, but with the 
private sector.
    Now, that would be something that would be helpful to us, 
as we take these young men and women that are coming out of 
the--our services who are technically capable and ready to go 
into the depots. And if they have to wait 180 days, sometimes 
we lose the opportunity to get them.
    Ms. Bordallo. So to lessen that 180 days?
    Admiral Moore. Yes, ma'am.
    Ms. Bordallo. General.
    General Levy. Thank you, ma'am. So I am going to piggyback 
on what Admiral Moore said about the 180 day, and then I am 
going to move to the civilian piece, if you don't mind.
    So, in my command, we perform depot maintenance on the 
intercontinental ballistic missile [ICBM] fleet. So I have 
members of my airmen at our ICBM bases in the northern tier of 
the United States.
    If you are a 20-plus-year Air Force missile maintenance 
mechanic and you get out of the Air Force and you want to 
become a civil servant and work for us, doing many of the same 
tasks, but a--at a overhaul level, you must wait 180 days.
    So, if you retire from Minot Air Force Base as a master 
sergeant, and you have to wait 180 days, and you have a 
mortgage and a family, et cetera, then, before you can apply 
and then wait, depending on what hiring authority they hire 
under, sometimes up to 4 months to get hired, you can imagine 
we are going to lose that workforce.
    And there are not a lot of trade schools in the United 
States where we teach people how to do maintenance on 
intercontinental ballistic missiles, same thing with jet engine 
mechanics, et cetera, et cetera. And the Navy has the same 
problem across a variety of its skill sets. So relief in that 
area would be particularly useful for us.
    My sense is that the services have complied with the intent 
of Congress, which says, ``Don't hire retired military before 
180 days,'' and, while there's a waiver authority, the services 
don't want to go against the will of Congress, so they have 
been very reluctant to exercise that waiver authority. I think 
the time is ripe for us. As we enter this era of a competition 
for talent, ma'am, our services, and particularly our 
industrial artisans, are a high-demand workforce.
    Recently, I just had a meeting with the Aerospace 
Industries Association and some others about competition for 
talent in the aerospace industry. We talk about a pilot 
shortage in the Air Force. But we have software engineer 
shortages, we have jet engine mechanic shortages, et cetera, 
because, as the economy recovers, as airlines hire, both 
domestically and internationally, what we see is that demand 
signal for talent.
    And I would echo Admiral Moore's comment about our 
appreciation for the expedited and direct hiring authorities. I 
would ask that they be allowed to continue. I have mentioned 
before to some of the members that we would like to see that 
expanded, because the way the language is written currently, 
what it does is it allows us to direct-hire and--expedited 
hiring of--in a limited set. I often liken it to this: I can 
direct-hire the quarterback on my team today, but I can't 
direct-hire the other members of the team. I need all of the 
team in order to be successful.
    So the expansion of that so we can achieve the kind of 
velocity in our hiring system and bring those permanent 
civilian airmen onto our team and keep them there is essential 
for us to generate combat power for our fifth-generation Air 
Force.
    Ms. Bordallo. My time has run out, but one--just final, 
from the two of you. Do you want it completely eliminated, or 
just a shorter period?
    General Levy. Since I have the mic, I would say I would 
like to see us have the opportunity to completely eliminate it, 
and here's why. Back to my example about a retiring master 
sergeant, if he or she has a mortgage or they have kids in 
school----
    Ms. Bordallo. Oh, I understand.
    General Levy. We don't want to lose that talent. We want 
them to be able to take that vital skill set and directly 
translate it, as a civilian, to our civil service workforce and 
keep adding value and capture that experience--not only 
technical experience, ma'am, but often leadership experience, 
because that is equally essential to getting the job done for 
us.
    Ms. Bordallo. Well, thank you very much. And, Mr. Chairman, 
I do have a second round, if you----
    Mr. Wilson. And--and thank you, Congresswoman Bordallo. We 
now proceed to Chairman Rob Bishop.
    Mr. Bishop. Thank you. I appreciate you guys being here 
when you could be actually out doing something worthwhile.
    [Laughter.]
    And you can take the last answer off my time, because I 
want to finish off on--on the last thing you said, General 
Levy. Also, at the end of your oral statement, you talked about 
how, as our weapons system is advancing technologically, so 
must our workforce to maintain it. And it is very clear that 
there is a nationwide shortage in STEM [science, technology, 
engineering, and math] workers.
    As a liberal arts guy, that hurts me to say that, but it 
happens to be true, as well as the fact that our national 
employment rate is very high--is great, and it makes it more 
difficult to find people who are willing to work.
    So I would like you to follow up on what you were talking 
about. What can we specifically do to incentivize the depots in 
their hiring practice? And what other--you mentioned some, but 
are there other specific obstacles that we can eliminate to 
help in this process of getting a talented workforce?
    General Levy. Yes, sir. Thank you for the question. So 
there are a number of things I think we should collectively be 
doing as a nation. First of all, I would offer, and this is a 
long-term strategy, is we need to change the conversation about 
STEM education in the United States.
    Otherwise, we are--we are just sort of managing the 
shortages, which has near-term implications, of course, but, in 
reality, until we--until the Nation produces enough STEM 
graduates, we are going to continue to have this problem. And 
this isn't just a defense issue, sir. This is an economics 
issue. This is an international competitiveness issue, in my 
view. And, when I talk about an industrial base, both 
commercial and organic, that suffers from some shortages, this 
is one of the ways you get at that.
    I would offer that expanding the direct and expedited 
hiring authorities is really important. I would also offer that 
steady funding that allows us to have a steady drumbeat for 
demand signal to colleges and universities is also really 
important.
    We have had some really good success in our organization 
working with some of the State 4-year engineering schools 
because we have been a pretty predictable partner. So they have 
been able to make infrastructure investments in engineering 
student output.
    Another thing that I would offer is our delays in getting 
security clearances create some significant challenges for us. 
That is not, probably, a hiring issue, but it is a--I call it 
an attractiveness place to work issue.
    Right, if you are going to--if we are going to hire you, if 
we had all the hiring authorities we thought we wanted and 
needed and we are going to make you wait for some period of 
time to get your security clearance, that is not really very 
incentivizing to you to come to work for us.
    And, frankly, we are in a competition for talent. The work 
is complicated and the skill sets required are very high, and 
the--as you mentioned, sir, the unemployment rate is going 
down.
    That is a good problem to have for the Nation, but it 
certainly creates some challenges for all of us in the kind of 
skilled artisanship that we need to sustain our weapons 
systems, whether they are air-breathing, whether they go at 
sea, whether they are cyber or in space. Thank you, sir.
    Mr. Bishop. No, I--I appreciate that, especially you are 
talking about hiring authority and the security clearance 
delays. That is something I think Congress needs to look at to 
see how we can expedite that with you.
    I got, like, 2 minutes. Let me come at one last thing. GAO 
[Government Accountability Office] did a report that talked 
about challenges and concerns with the global pool of spare 
parts for the F-35 for us and our international partners.
    Can you explain in a--in like a minute and a half anything 
about that issue and the construct that goes there? And, 
additionally, if we were to authorize additional funding for 
spare parts, how can we assure that we get value in that global 
parts pool?
    General Levy. Yes, sir. Thank you for the question. I can 
talk about it a little bit. And I would say that the construct 
we have is the construct that we signed up to, which creates a 
global spares pool where the U.S. services and the partner 
nations in the F-35--and I am not the F-35 program executive 
officer, so I want to be careful not to get out of my lane--but 
we created this global spares pool where we all put money in 
and we all receive some benefit.
    I would say it is early in the program yet. I think I will 
see--I would expect to see that mature and the depth of that 
sparing and spares pool grow over time.
    I think the larger issue, frankly, is the industrial repair 
capability for those spares. And it is somewhat in its infancy 
as a weapon system. Remember, we are just now starting to get 
to the point where we are go--where we are going into full-rate 
production. We just had our 300th airplane delivered just last 
week, I believe it was.
    So we are early days yet. The funding would be helpful. I 
won't--I wouldn't necessarily disagree with that. But the 
construct says that the partner nations, the original nine 
people in the discussion, all benefit relatively equally from 
the money that is invested. And so I will leave it at that, 
sir.
    Mr. Wilson. And thank you very much, Chairman Bishop. We 
now proceed to Congressman Joe Courtney of Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you to the 
witnesses this morning.
    Admiral Moore, on page 3 of your testimony, again, you 
walked through the issue of the backup regarding attack sub 
repair work--you know, the fact that, again, NAVSEA says that 
it wants to protect industrial base health, and maybe that is a 
way of trying to solve that problem, in terms of the SSN 
[attack submarine] work that needs to happen.
    You know, we had Secretary Spencer and Under Secretary 
Geurts, up in Groton a couple months ago, walk through the 
imminent short-term valley, which nobody disputes, once the 
Montpelier work wraps up and the fact that, again, with the 
commencement of the Virginia Payload Module program as well as 
Columbia, if we--if that valley occurs, you are adding risk to 
those programs in terms of just, you know, a workforce that is 
showing really good, strong growth in both metal trades and 
design work.
    So, you know, I guess we are really very close to that 
event occurring. And I just--I don't see in--in this testimony, 
you know, a response to that issue, which, again, the Secretary 
and the Under Secretary completely did not dispute the fact 
that that is happening.
    So--so, you know, you have tools. I mean, I have been 
through this with your predecessor two times removed. You have 
heard me say this before--Admiral McCoy's contracting process, 
which allows the Navy to move quickly to try and deal with 
these issues of industrial base issues.
    So can you help us this morning, in terms of just whether 
or not NAVSEA intends to do anything in terms of that imminent 
valley?
    Admiral Moore. Well, you know, the short answer, yes, we 
do. And we are looking right now at the fiscal year 2020 and 
2021 workload, not only in the naval shipyards, but, obviously, 
up at EB [Electric Boat]. And, frankly, we have responsibility 
for the health of the entire industrial base.
    So I think you are going to see, here, in the relatively 
short term, we are going to come to some decisions that would--
would move--was going to move some submarine work into the 
private sector in that timeframe to address your concerns.
    And I think we learned a pretty hard lesson on Boise, which 
was we waited, you know, too late in the game to make that 
decision. So what I have talked to naval leadership about is 
two things. One, we need to look 2 to 3 years or more out, 
because I have a pretty good sense of what workload I need and 
what I have in the public shipyards. And, where I have workload 
peaks, we should, instead of waiting to the last second to see 
if we can hang onto that work ourselves, I think it make sense 
for us to go ahead and--let's provide ourselves some additional 
capacity by putting the work in the private sector.
    So I think you are going to see here, pretty shortly, we 
are going to make some decisions that will, I think, address 
your specific concern. But I think, also, the other thing is 
that we have learned, you know, with Montpelier at Electric 
Boat and Helena and Columbus now at Newport News, that, you 
know, the skill set required to do maintenance is different 
than it is for new construction. So, when you give them repair 
work after they haven't had repair work in a while and you 
expect them to immediately perform like a Swiss watch, you find 
they are challenged to do that.
    So we are challenged--EB's been challenged on Montpelier--
we are going to be late there--and Newport News is being 
challenged on Helena, and we will--going to be a little late 
there. Some of that is because we haven't built that 
proficiency up.
    And so the Navy's having discussions that maybe would be in 
our best interest to, on a regular basis, keep some submarine 
repair work in the private sector, not only as a relief valve 
for the public yards as we level out them, but also to 
establish that proficiency level so that, you know, when we do 
get ourselves into a crisis, we have got a partner over there 
that has performed that work on a regular basis, that can do 
that, going forward.
    So I think we are ready to address your concerns. And I 
think, going forward, I think we will be able to satisfy what--
you know, what you and I have been talking about here.
    Mr. Courtney. Well, thank you. I mean, we obviously will be 
watching, you know, great--very closely to what develops. The--
so I think your analysis regarding repairs versus construction, 
you know, makes perfect sense. And, certainly, we have heard 
that up in the yard there.
    I would--you know, obviously, a layoff and a potential loss 
of skills is even more harmful to the overall program. So, you 
know, having some repetition in terms of repair work to keep--
you know, to avoid delays, I think, makes a lot of sense. And, 
again, as usual, our office, you know, looks forward to working 
with you in terms of how this unfolds.
    With that, I yield back.
    Mr. Wilson. Thank you, Congressman Courtney. We now proceed 
to Congressman Austin Scott of Georgia.
    Mr. Scott. General Levy, it is not often you hear an LSU 
[Louisiana State University] grad admit to the direct hiring of 
a quarterback, but I appreciate your admission.
    As you know, our depots are an essential component of our 
readiness and our national security. We have discussed this 
many times. And we have discussed the increased funding by this 
committee for sustainment.
    What steps are you taking at Warner Robins Air Logistics 
Center to invest in the workforce, to recapitalize the assets, 
to improve operations efficiencies and capabilities? And how do 
you expect this will improve readiness for the aviation fleets 
and the Air Force?
    General Levy. Thank you, sir. Thanks for the comment about 
the LSU football. Duly noted, sir.
    So, with respect to Warner Robins, we have made a variety 
of investments both in infrastructure and in the human capital, 
because, because frankly, sir, people are more important than 
hardware. And you just heard Admiral Moore talk about the skill 
set deltas between making new stuff versus repairing things.
    And the skill sets of the artisans at Robins are what 
actually sets it apart. So, in the past year or so we have 
hired over 1,000 new employees to accommodate the increasing 
workload, and we have partnered with the technical college 
system in Georgia to give us the skill set so when they come 
in, they are much more mission-ready than we have had in the 
past.
    In years gone by, that has not necessarily been a feature 
of how we have brought people on board. Coupled with the direct 
hiring authority that we have been allowed to have, thanks to 
the Congress, that has given us some additional velocity.
    So, on the workforce side, I think we are on the right 
trajectory. Then, on the infrastructure side--and I would tell 
you, there's never enough money for infrastructure. That is 
probably a whole separate conversation in and of itself, but we 
have actually taken some of our own investment dollars and put 
it into an advanced metal finishing facility at Warner Robins 
Air Logistics Complex.
    Now, advanced metal finishing is probably not the glitziest 
topic that comes before this subcommittee, but I would tell 
you, when it comes to chrome plating or cadmium plating of 
important aerospace components, it is essential, because you 
have to have them for the airplane. They are--they can be 
environmentally difficult to work with, and they are--can be 
hazardous to the workforce.
    But we took investments and we automated that process so we 
can take the humans out of the loop, achieve a better product 
much more quickly for us and our joint teammates. So hopefully 
that gets to your question, sir.
    Mr. Scott. So one of the things that is changing in 
aeronautics is the--how we are integrating data and, 
effectively, artificial intelligence into forecasting repairs 
and the need for repair parts and components and improve the 
process for conducting maintenance.
    What are the Air Force's greatest obstacles to fully 
integrating the available analytical tools into fleet 
maintenance?
    General Levy. That is a terrific question. So the--
currently, in the logistics and sustainment system, sir, we 
operate over 230 information technology systems--IT systems. It 
is disparate. They don't talk to each other.
    I often describe it as we are data-rich and knowledge-poor. 
We have lakes of data, but given our disparate IT systems that 
have evolved over the years, it is very difficult for us to 
pull that together to make--to gain the kinds of insights that 
we want.
    We have recently undertaken an initiative for condition-
based maintenance, whereby we are now developing analytical 
engines to look at that data, draw some meaningful insights so 
we can do more predictive maintenance; have the parts, have the 
people, either at the Air Logistics Complexes or in the field 
because, remember, unlike the Navy, my two Navy colleagues to 
the left, I own the supply chain for the Air Force; the Navy 
has a separate supply corps.
    That is important for me, right? It is not just what I do 
at the Air Logistics Complexes. It is what I do at Al Udeid in 
the desert. It is what I do at Misawa in Japan. It is what I do 
at Osan in Korea.
    And so having that analytic engine allows me to understand 
what the demand signal is going to look like, based on the wear 
and usage and break patterns of the weapon system. It is not 
just the airplane, either. It is the support equipment, the 
vehicles, the test equipment. You need all of that to make the 
airplane serviceable.
    So that condition-based maintenance system that we have 
undertaken has really started to yield dividends with us on 
things like the B-1, the B-52, and the C-5, which, as you well 
know, sir, is currently sustained at the Air Logistics Complex 
at Warner Robins.
    Mr. Scott. I--as we proceed through the year, I am 
interested in any comments. I know one of the key issues is who 
actually owns the data. When we, as the American taxpayers, pay 
for the development of the system, it baffles me that, in the 
contracting--that we don't own the data rights.
    And so I hope that, in any addition--any future contracting 
for any weapon systems, that that is a part of it--that we 
actually own the data. The idea that they can charge us for 
something that we paid to develop--it is just absolutely unfair 
to the taxpayers of the United States.
    Gentlemen, I appreciate your service.
    Mr. Wilson. Thank you, Congressman Scott.
    We now proceed to Congressman Salud Carbajal of California.
    Mr. Carbajal. Thank you, Chairman Wilson.
    My questions are both for Admiral Moore and General Levy, 
on the civilian workforce. Last month, the Office of Personnel 
Management [OPM] sent to Congress a request to cut annuities; 
reduce, then eliminate the Federal retiree cost of living 
adjustments; and eliminate the Federal Employee Retirement 
System annuity supplement for Federal Government civilians.
    With all this, how would these proposals affect your 
ability to recruit and retain a qualified Federal workforce, 
civilian workforce?
    Admiral Moore. Sir, I would have to take that as a look-up. 
I am not familiar with the specifics of the OPM proposals. You 
know, I can speak to the fact that, you know, the workforce 
itself, you know, is an important part of what we do.
    They are proud of the work they do. They are--while they 
don't get paid on the same par as, maybe, their civilian 
counterparts do, they do it because they are working on 
something that is bigger than themselves.
    So I don't know that I can comment on this--on the 
specifics of the issue there, relative to the workforce, 
without knowing the specifics of what is going on from OPM, 
sir.
    Mr. Carbajal. Admiral, I appreciate your patriotism, but I 
think we all do it for our country. But our men and women in 
the military, as well as the civilian workforce that supports 
our national security deserve to have good benefits.
    So I am sure, if our military personnel didn't have good 
health care, pensions, that would affect our ability to retain 
and attract individuals in the military, as well.
    General Levy.
    General Levy. Sir, I, too, am not familiar with the OPM 
language, so I can't comment directly. But what I would offer 
is, maybe, a way to think about the problem that is before us.
    Often, in government service, we have had the mindset 
that--that people were cheap, cost-wise, they were plentiful, 
and that the work was easy. I would say that, in the modern DOD 
that we find ourselves in, as we move from an iron-age DOD to 
an information-age DOD, people are scarce, they cost more, and 
the work is infinitely more sophisticated.
    And I would add that we are in a war for talent. We talked 
about pilot shortages in the Air Force, but I would tell you I 
have software engineer challenges. I have jet engine mechanic 
challenges. And we could talk about a variety of skills, but I 
think you get the message.
    My point is, we need to--we need to be an attractive place 
to work in this competition for talent. Benefits is important. 
So is good working conditions--you heard the admiral refer to 
that a few moments ago. But so is the notion that they are 
serving their Nation.
    In fact, much of my workforce are veterans. They have--they 
have worn the uniform of some branch of the military and then 
they come over to the civil servant side.
    And so this is all part and parcel, I think, of a larger 
discussion, sir, about, are we, the U.S. Government, an 
attractive place to work to bring the best and brightest talent 
in, whether it is the DOD or the Department of the Treasury or 
Interior, et cetera? That is--that would be my--my perspective.
    Mr. Carbajal. Thank you. And secondly, the recently 
published fiscal year 2018-2019 National Defense Business 
Operations Plan, a supplement to the 2018 National Defense 
Strategy, stated, quote, the Department's lethality and 
readiness are not just a function of our service members. DOD's 
civilian workforce is essential to sustaining the viability and 
capabilities of all--of an All-Volunteer Force, providing 
critical equipment, maintenance, logistics and engineering 
expertise.
    Can you both elaborate on the value of the civilian 
workforce to the Department's mission? I think you have already 
touched on that, but if you could just touch on it a little bit 
more.
    General Levy. Yes, sir. I would--I would say that, simply 
put, we can't get the job done without them. So, of the 43,000 
airmen in my command, approximately 70 percent are civil 
servants. Now, I wouldn't tell you that unless you asked me, 
because I don't distinguish what outfit they wear. They are 
airmen, and I have the expectations of them as I would anybody 
that wore the uniform.
    They are essential. We simply can't get the job done 
without them. We can't sustain. We can't project. We can't set 
theaters open and fight theaters. It is just that simple; we 
could talk for hours, but it is just that simple.
    But the other thing that I think is lost on many is that 
our civilians deploy. Now, our Department and our Nation can 
compel me to deploy. We can't compel our civilians to deploy. 
But yet many of them volunteer, when they don't have to, to 
deploy. That is the caliber of the men and women that join our 
civil service.
    And so being the right kind of workplace, the right kind of 
employer with the right kinds of opportunities is how you 
continue to attract and retain that kind of talent that will 
provide for the common defense in the years going forward. 
Thank you, sir.
    Mr. Carbajal. Thank you very much. We really needed to hear 
that, because sometimes we lose sight of that importance.
    Mr. Chairman, I yield back.
    Mr. Wilson. Thank you, Congressman Carbajal.
    We now proceed to Congressman Steve Russell, a very 
appreciated combat veteran himself.
    Mr. Russell. Thank you, Mr. Chairman, and thank you for 
being here today, all three of you. And, General Levy, I 
appreciate the comments on IP [intellectual property] data and 
how it affects sustainment. I know this is something that we 
have talked about in the past. And I associate with 
Representative Scott's comments about the--the technical data, 
and I know this is something that all the services face. It can 
really throw a monkey wrench on sustainment.
    I would like to ask you about the health of the defensive 
supply chain. You touched on it briefly. And, Admiral Moore, I 
would like to also get your--because I know it is a different 
system for each of you.
    General Levy. Yes, sir. So thank you for the--for the 
question. The intellectual property is a significant challenge, 
and Representative Scott brought up a great point about what do 
we fund, what do we get, how do we get it.
    I would say that, in the 21st century, the intellectual 
property and the--and the data will be probably more valuable 
than the hardware itself. So, to your question about supply 
chain and intellectual property, for example, the absence of 
intellectual property creates some challenges for us in 
managing the supply chain.
    The supply chain that I do manage--and I will come back to 
that. I have actually brought a couple of examples for the--for 
the subcommittee to see. But the problem in the supply chain is 
it is extraordinarily brittle.
    We believe that the defense industrial base, both 
commercial and organic, is sort of this arsenal of democracy. 
That is simply not the case anymore, particularly for 
sustainment. We have an--a large number of the vendors that we 
buy from are--there's only one vendor in the marketplace--
single-source vendor--not sole-source contract; single-source 
vendor.
    And in some cases, we have no vendors. And these are small 
companies, sir, 10, 15, 20 employees. And when there's 
irregular or--and/or inadequate funding and we perpetuate the 
funding chain, which perpetuate the demand signal, which then 
radiates uncertainty to those small businesses, they make 
decisions.
    And there is no 1-800 B-52 parts phone number I call. There 
is no 1-800 F-18 parts that the Navy calls. These are small 
businesses that are essential. An airplane needs all the parts. 
The ship needs all the parts, right, whether it is a $300,000 
part or a 50-cent part.
    And so, in many cases, that is an impactor to readiness for 
us. If we can't get someone to build or make the part for us, 
we sometimes end up doing it ourselves. And that sometimes 
takes longer, and that delays readiness. That means a ship's 
not out at sea, an airplane's not in the sky. And that means 
that we, as joint teammates, are not being good wingmen to one 
another. And so we worry very much about that.
    We have--I actually brought, sir, a couple examples of what 
happens when the supply chain goes right and when it goes 
wrong. And this one's actually all about intellectual property. 
And I will leave these exhibits for the subcommittee, because 
my lawyers tell me that is what I have to say.
    But this is actually an ejection seat cover--I am sorry, an 
ejection seat handle cover for a B-52 bomber. Looks like a 
fairly innocuous piece of plastic, right? We tried for over a 
year to get industry to bid on this--the normal FedBizOpps, all 
the things you normally do in government contracting. Nobody 
would bid on this. The airplane needs this part. The last B-52 
was built before I was born. Finally, some of my engineers, 
with some of our additive manufacturing capabilities, said you 
know, I think we can do this. So we invested 40 hours of our 
engineering workforce time, they reverse-engineered this part 
and they 3D printed it for $56.
    Imagine if we had more intellectual property and we could 
do more of this. When we talk about 3D printing, we tend to 
talk about the really glitzy things that you see hanging off of 
an airplane. But this is just as important as some of those 
other parts and just as hard to come by.
    I will give you another example. This is a bracket. It is 
used to hold a piece of tooling to drill out holes in a 
bulkhead on an F-16. That doesn't sound very exciting. But, if 
you don't drill those holes out right, you can't put the 
landing gear on the F-16, and you can't see where the holes get 
drilled until our guys came up with a way to make this bracket.
    So you can put the drill in the right place, drill the 
hole, and go from 2 weeks of downtime, to 2 days of downtime. 
That is readiness. That is what the organic industrial base can 
bring to the fight, in terms of driving up readiness, driving 
down cost, driving down risk. But it is heavily dependent on 
intellectual property. Thank you, sir.
    Mr. Russell. That was a good answer. Admiral Moore, would 
you care to comment on some of--and, of course, Admiral Peters. 
I am limited on time, but----
    Admiral Moore. I brought a couple of parts from an aircraft 
carrier, but they are too big to fit in the conference room----
    [Laughter.]
    Admiral Moore.  [continuing]. And so I have left them--left 
them outside.
    I would echo General Levy's comment on, you know, the 
predictability and stability of funding. We often talk at the 
Tier 1 level--you know, the folks that are actually--you know, 
the Northrop Grummans, the Boeings, building the planes and the 
ships. And they are impacted by unpredictable funding, but less 
so than the smaller Tier 2, Tier 3 ma-and-pa shops that are 
providing the--really, the supply chain for building these 
things.
    I would echo exactly what he said--is that, when we talk 
about funding instability, I think what really hurts the Navy 
the most is down at the folks that are actually--you know, the 
small businesses that are providing the critical supply chain 
parts for our ability to go build these aircraft carriers and 
ships and maintain them, going forward.
    Mr. Russell. Thank you. I yield back--sorry, unless the 
chairman wants----
    Mr. Scott [presiding]. No.
    Mr. Russell [continuing]. Admiral Peters.
    Mr. Scott. Sorry. Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman. Thank you for your 
service to the country. We have been working on a bipartisan 
bill--Congressman Russell is actually on it--about how do we 
modernize the Federal agencies' information technology systems.
    And I would be curious your experience in modernizing the 
information technology systems with our military and how that 
has gone and whether there's anything Federal agencies can 
learn from that or whether there is still more work to be done.
    Admiral Peters. Thank you for the question, sir. I will 
address it in terms of Navy ERP [enterprise resource planning]. 
That is a system that we have had some success with, but it is 
not deployed across all of our organizations. In particular, we 
are just now beginning to deploy it across our aviation depots, 
and that is an area that we need to accelerate so that we have 
end-to-end visibility on all of our assets.
    And, just as an example, we have recently stood up ERP 
capability at a kitting facility down in FRC Southeast. And we 
are--so we are going through the growing pains of establishing 
that capability there.
    But even as we move through and complete those kits and 
they are ready to be shipped out to the fleet, at--when they 
are shipped out, then that system, the tracking of that system 
is now dependent on different databases and spreadsheets.
    And so I think the first priority is, modernize ERP, open 
up all the functionality that is available there, expand it 
across our industrial base, and then maybe even move to the 
next phase, which is operational.
    Admiral Moore. Thank you, sir. It is a great question, and 
one of the--you know, one of the big challenges we have in our 
depots today is we try to update the IT systems we have.
    We have got an ongoing effort in the naval shipyards to 
provide a 21st-century infrastructure and IT that will allow us 
to kind of link together all the processes we have there to buy 
material, build innovative plans, et cetera. It is a real 
challenge.
    I think that the thing that we have learned here is you 
have got to plan ahead and think far enough in advance. Don't 
bite off more than you can chew. There's a tendency to want too 
many bells and whistles on these things up front. Go after 
commonality as much as you can.
    And so we have--as we have worked through what we call 
NMMES [Navy Maritime Maintenance Enterprise Solution]-Tech 
Refresh in the naval shipyards, we are trying to leverage off 
of ERP so we don't create these boutique solutions which over 
the long haul really hurts us. And the last thing is, you've 
got to build the cyber piece in up front and factor that into 
your decision making. I think those would be kind of things we 
have learned, on the Navy side of the house.
    General Levy. Thank you, sir.
    So we have similar challenges. And part of this I think we 
all face is becoming fire compliant so we are audit-ready, too. 
That is the other piece of this, which our systems have not 
historically been designed to do.
    I would also offer that the acquisition process for buying 
ERP and ERP-like systems has been somewhat disruptive. We have 
been trying for a number of years to get a maintenance repair 
and overhaul ERP in our Air Logistics Complex system. We just 
got that on contract.
    We also, now, have our supply chain forecasting system on 
contract, and those two systems actually integrate very nicely 
together. Again, that is a little bit different than the Navy 
model, because I own the supply chain and the repair chain, so 
I, in essence, have the entire logistics kill chain, from 
factory to flight line and back. And so that is what we are in 
the process of doing--taking those 230 systems and necking them 
down.
    I would offer, though, that one thing that we don't talk 
about with these IT systems is the IT infrastructure. We tend 
to talk about the IT system, but you need comm pipes and 
bandwidth and switches and all of those things that aren't very 
glamorous. But as the amount of IT systems have exploded in the 
DOD and across the entire Federal Government, I am not sure 
that our--I will call it IT infrastructure--has kept up.
    And so, as we go to these systems that I just referred to, 
one of the key components for us is to make sure that we have 
the infrastructure so the system has something to work on, so 
you don't have an exquisite system, but you watch the little 
blue swirly wheel.
    And then, of course, as Admiral Moore said, baking in the 
cybersecurity is absolutely critical up front, not just for the 
system itself, but for the rest of the airpower factory that we 
operate. Thank you, sir.
    Mr. Khanna. Quick question--comment. I was struck by your 
comment, General Levy, about retention in your previous 
question. It reminded me of Ronald Reagan's quote where he 
said, ``I know the best civilians aren't in government, because 
the private sector would hire them away.''
    And I represent a district with Apple, Google, Intel. On 
this committee, of course, you have people like Congressmen 
Carbajal and Gallagher and Russell who have answered the call 
to service in the military. But I wonder, what can you do with 
the young tech folks to attract them to go into public service?
    General Levy. Well we talked somewhat about the--kind of 
the HR [human resources] policies that the government has. But 
I would say that--and I will give you a good example from my 
engineering workforce--if I can get them on board, they stay. 
My turnover rate for software engineers is lower than industry. 
And you say to yourself, well, why is that, because you don't 
pay as much?
    Because they do something that is meaningful; it is 
impactful. We give those young men and women, out of college--
once we get them on board, you know, all the hiring stuff 
aside--we give them something that--that most college graduates 
don't get to do.
    For example, recently, we hired somebody from Georgia Tech, 
brought them in. Once they got on board, within 2 weeks, they 
were working on night vision targeting systems for AC-130 
gunships. That is compelling.
    That is--you can tell your family and friends, I went to 
work today and I made a difference. Yeah, I didn't make the 
salary that my friend over at this other commercial firm made, 
but I made a difference. And so part of this is a call--a 
national call to service. We often believe the call to service 
looks like this.
    Mr. Scott. General Levy, if I may----
    General Levy. Sir.
    Mr. Scott. I am sorry, the time is expired. But we are 
going to have time, I believe, for a second round of 
questioning. But I----
    General Levy. My apologies.
    Mr. Scott [continuing]. Think it was an excellent question. 
Mr. Gallagher, 5 minutes.
    Mr. Gallagher. Thank you, Mr. Chairman. It sounds good to 
call you that. Awesome--don't get too, you know, excited about 
it, though.
    Mr. Scott. Thank you----
    [Laughter.]
    Mr. Gallagher. I would like to circle back on what I think 
is sort of an emerging focal point in this hearing. We had 
this--the Annual Industrial Capabilities Report, which was 
released in--last May, I believe, from the Pentagon.
    And they talked about a lot of things we have been talking 
about, which is that the greatest challenge that could harm 
domestic defense capabilities is the demographics of the 
workforce. Right?
    And, in particular, they said only 39 percent of current 
workforce is under the age of 45, and that is a huge long-term 
threat. And, General Levy, I would like to sort of highlight a 
portion of your testimony which I think is very good and very 
important.
    I mean, you talk about how 80 percent of what you do--well, 
you depend on 80 percent civilian workforce--89 percent, if you 
include contractors or commercial airmen. And you have--you 
talk a lot about how an antiquated civilian hiring system 
constrains our ability to effectively compete with industry for 
qualified workforce.
    And also, all of you have talked about the need to attract 
our STEM patriots, the next generation, which this report also 
highlights. So, at the risk of being repetitive, could you kind 
of, again, explain in simple language that even a Marine like 
me could understand, what--where do the constraints come from?
    And then, what is the right fix for us to pursue? You 
talked about a waiver process before, but DOD is not really 
interested in exercising the waiver because they think it 
defies congressional intent. Can you just sort of clarify both 
the problem, and then the prospective solution, if you will?
    General Levy. Yes, sir. So I will try to make it Marine-
friendly. But I would happen to quote a Marine----
    Mr. Gallagher. Pictures would be a big help.
    [Laughter.]
    General Levy. But--but a famous Marine once said, amateurs 
talk tactics; professionals talk logistics.
    Mr. Gallagher. Indeed.
    General Levy. And that is what this--that is what this 
hearing really is about. So, first of all, I would offer that 
we need a national-level conversation about the value of work 
in this kind of trade space.
    We really just don't talk to young men and women about 
what--what does it mean to become a jet engine mechanic or an--
or an aerospace worker or any of the other skill sets that we 
all collectively need in order to do our job. So I think that 
is really important for us.
    Then the other thing I will go back to is being able to 
bring people in quickly and capture them into the company fast. 
I will give you a great example. Commercial firms go to 
colleges, and they hire you when you are a junior, if you are 
an engineer. They say, basically, if you graduate, here's a 
letter of offer. If you--as long as you get your degree, you 
are coming to work for us.
    That is the kind of agility in the marketplace that we need 
to have. So there's a conversation about the value of non-4-
year-degreed work. And then there's a series of hiring--I will 
call them personnel actions or modifications that you have to 
have. And then the third thing you talked about was former 
military, the 180-day waiver. I believe that is really--I think 
we are leaving a lot of talent behind when we do that. And so 
how we modify that, I think, is essential.
    We face an aging workforce. I don't think any of us would 
push back on that commentary. And so incentivizing, by word and 
deed, the next generation of airmen, whether it is civilian 
airmen or military airmen or sailor, I think, is going to be 
essential for us to have this national insurance policy that we 
call the defense industrial, organic industrial base for our 
kids and our grandkids, sir.
    Mr. Gallagher. Can I just--because I am running out of 
time--you know, I have--we--the big conceptual shift in the 
National Defense Strategy, National Security Strategy is sort 
of moving towards recognizing that we are in and must continue 
to prepare for an era of great power competition with China and 
Russia.
    Obviously, we would like to prevent great power conflict 
with Russia and China, avoid World War III. But in the 
unfortunate circumstance that we find ourselves in such a great 
power conflict--a conflict, how do you assess the ability of 
the industrial base and the associated logistics infrastructure 
to surge to meet what our demands would be?
    Admiral Moore. Well, today, the industrial base is sized to 
meet the capacity that we have. And so it has limited surge 
capacity. And, frankly, I think, you know, you can go back and 
read Freedom's Forge and talk about World War II and lessons 
learned there.
    But, if we were to get into a major conflict today, we 
would respond rapidly. But the surge capacity doesn't exist on 
day one, and we would have to work pretty quickly to go--to 
raise the number of people and have the facilities ready to do 
that.
    Mr. Gallagher. And I have run out of time. But I think it 
is--I mean, it is difficult because, in contrast to World War 
II, I mean, you can't sort of, like, take these Ford factories 
and get them to start producing aircraft now. It is just far 
more complex.
    So I will hopefully circle back in the next round. Thank 
you all.
    Mr. Scott. Ms. Hartzler.
    Mrs. Hartzler. Thank you very much and good to see you 
again, General Levy. I enjoyed touring Tinker and seeing the 
great work that you are doing down there in my colleague's 
district and wanted to follow up on what you were saying about 
the security clearance backlog, because that is something that 
we are looking at in O&I [Oversight and Investigations] 
committee and that is something we are trying to address.
    And as the DOD takes on that responsibility through the 
NDAA and they are working on that, what do you think is the 
timeline that would be acceptable to civilians? What should be 
the goal? I mean, do you think if we could get a security 
clearance process so it is down to 6 months, do you think they 
would stick around? Or--you know, it is far beyond that, 
sometimes, right now.
    General Levy. Yes, ma'am. Great to be with you as well, 
thank you.
    The security clearance problem has been a problem since I 
have been in uniform, 33 years. And I have not seen it really 
significantly improve. It gets a little better, a little worse, 
but it sort of--I mean, it took 2 years for my last update, for 
example--just incredibly long time.
    To your question, so when the DOD takes that responsibility 
back in-house, my understanding of the language is that 
security clearances that are already in process, and I think it 
is 300,000-plus, will remain with OPM, and only new ones, going 
forward, will be initiated and processed by the DOD.
    So my only point of bringing that up is to manage 
expectations that, once DOD does it, all these things are 
already in process probably won't--I wouldn't expect to 
necessarily see those resolved quickly.
    To your specific question about timeline, I would like to 
see us get it done in 4 months. That is a stretch goal, I know 
that. And I also know that doing a security clearance is--
requires a lot of legwork, a lot of investigating, a lot of--
and, if you have lived a lot of places, it is more complicated, 
et cetera. But I am not 100 percent convinced that we are 
leveraging technology as much as we should be, and I think 
there's some opportunity for compressing.
    I would offer, too, that one of the things we do in my 
command, is we do constraints-based management. We map the 
process, from soup to nuts, and then we look at the 
constraints, and we go attack that first, biggest constraint 
and shrink it, and then the next and the next.
    I would offer that the security clearance process might 
be--might be overdue for an analysis like that, so we can 
figure out where the real friction points are and drive that 
down, whether it is in OPM, DOD, or at the--at the member/local 
level, if that makes any sense.
    Mrs. Hartzler. Very good. I appreciate that input.
    Vice Admiral Moore, I understand the Department of Defense 
has sought significant increases in facility sustainment, 
restoration, and modernization [FSRM] funding, specifically for 
demolition of facilities that do not meet operational 
requirements and, in some cases, hinder the readiness of the 
military across the globe.
    In response, Congress has boosted funding for FSRM in 
previous fiscal years to tackle the challenge of maintaining 
facilities. Demolition of these buildings is important to 
sustaining readiness for the warfighter and reducing potential 
health and safety risk at DOD installations.
    For instance, I understand that Norfolk Naval Shipyard will 
require some infrastructure demolition and improvement in order 
to meet the Navy's growing demand signal for submarine 
maintenance. So can you explain the process used to identify 
buildings for demolition, as well as the process used to 
prioritize demolitions across the DOD?
    Admiral Moore. Yes, ma'am. Thank you for the questions. 
Absolutely, Norfolk Naval Shipyard has some buildings that have 
been there for, in many cases, 100 years or more that we need 
to get rid of. I think if you were to go to Portsmouth Naval 
Shipyard or Puget or Pearl Harbor, you would find the same 
challenges there.
    We have tried to address this in our comprehensive report 
to Congress on naval shipyard optimization. That plan actually 
addresses and prioritizes the work in the shipyards and which 
buildings we would go after first. In particular, you know, we 
will try and demolish buildings where we can take that 
greenfield and put something there immediately that would help 
us become more productive. So we are going to prioritize the 
removal of buildings where we could--we could insert a new 
building or new technology the quickest that would get us more 
productive at the naval shipyards.
    Mrs. Hartzler. Very good. Thank you very much. I yield 
back.
    Mr. Scott. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    The Army depots have conveyed to me for years they--how 
they have struggled with carryover limitations. And I am--I 
have been informed that it is not as much of a concern for the 
naval shipyards. Is that--is that accurate?
    Admiral Moore. Yes, sir. I think the part of that is 
because the naval shipyards are mission funded. So the working 
capital fund rules on carryover are different. So, in the naval 
shipyards, we are not as constrained there, although I would 
tell you, at the end of the day, we try to limit the carryover 
because----
    Mr. Rogers. Everybody does.
    Admiral Moore [continuing]. Because the carryover just 
means churn in the future years. So I don't have the same 
challenges, I think, that Admiral Peters has in his ready 
centers or General Levy may have in his air depots.
    Mr. Rogers. So, tell me, what kind of carryover would you 
have?
    Admiral Peters. Thank you, sir.
    The main constraint associated with carryover is, when you 
are accomplishing work that was paid for in a prior year and 
your cost is higher the following year, then you are going to--
that is going to upset your--your norm, your net operating 
result, which we watch very carefully, and it will have some 
implications for future funding years.
    But I think we manage the carryover accordingly. So I 
wouldn't--I would not describe that the carryover limitations 
are a major issue for us, because we have to manage our 
carryover.
    Mr. Rogers. General, are they a major issue for you?
    General Levy. Sir, thanks for the question. We typically 
break carryover into three buckets, if you will: the airplanes, 
the airframes, the commodities, and software. In the airframe 
and commodity area, I would echo my two colleagues and say 
that--I mean, there are puts and takes every year, but, just at 
a macro level, it is not really something that keeps us that 
awake at night. I run a $16 billion a year business, and so, as 
the CEO [chief executive officer], I think about that from a 
business perspective. And, as the admiral said, you know, 
managing the rate structures and the cost structures and what 
that means to my shareholders, i.e., the Air Force and the 
taxpayer and my joint partners, is really important to me.
    What I would tell you is that we do have some challenges 
with carryover and software. The software construct--the way we 
define software, the DOD 5000, the way we fund it, and with 
different appropriations, et cetera, we want to buy it and 
build it and take care of it like we do hardware, it is an 
antiquated notion. It is intellectually not compatible with a 
21st-century DOD.
    And, by extension, because I have 4,000 software engineers 
in my organization who do much of that work, the work that they 
do--the carryover in the software universe, I think, is really 
a bit of a challenge for us. Software really doesn't care about 
the fiscal year boundaries, and it doesn't necessarily get 
produced in the same kind of discrete chunks that a jet engine 
or an airplane or a ship gets produced in.
    So, if there were some things we could do to change that 
piece of the universe, we would be very appreciative, because, 
frankly, our ability to wield and launch ones and zeros in the 
future will be the key to combat dominance in a great powers 
conflict.
    Mr. Rogers. Well, to that end, because this has been 
something expressed to me repeatedly over the years from the 
Army depots around the country, I asked General Turner to draft 
the language that he thought would remedy that, and he did. And 
I put it in this year's NDAA.
    I don't know if you all have seen that, but I would ask you 
to look at it and see if it scratches your itch. If not, let me 
know what you need, because this is something that we didn't--
we don't need let go on any longer. But I would urge you to 
look at that language.
    Last question I wanted to ask of you all, we have heard 
about this technology challenge--you know, trying to get high-
tech young people to want to go into public service. What are 
the other critical skill sets that you-all need, because I 
don't hear that much from my world. But what are the critical 
skill sets you-all are worried about retaining in the 
industrial base?
    Admiral Peters. Sir, to answer that question, I would point 
us back to the comment associated with our aging workforce. And 
so our more modern aircraft, in particular, are not just about 
drilling holes and bucking rivets.
    We need to educate the current workforce even as we try to 
attract, you know, the future workforce. And we are doing that 
through some education programs. And the workforce has actually 
responded to it very positively, which I was a little 
surprised, but pleasantly surprised about.
    And so we are putting our workforce under a kind of an 
education development program, those that are interested in 
that, and so they are learning new skills and learning how to 
use the computer-controlled equipment like lathes and jigs and 
things like that that make our work more precise.
    And then, on the engineering and logistics side, we are 
using new technologies and new tools to be able to provide 
repairs. So thank you.
    Mr. Rogers. My time is expired. Thank you.
    Mr. Wilson [presiding]. Thank you, Chairman Mike Rogers. 
And these answers are so important, we will proceed to a second 
round. And, even before--as we begin, and--I will ask the first 
question.
    But, as I think of depots, something so inspiring to me 
with the technologies we have today of--of barcode that--
equipment can be identified instantly and found instantly, with 
the cell phone's capability, where people can communicate in 
the most remote areas of the world.
    How opportunities--it was so inspiring to me. I visited the 
theater distribution center in Kuwait, during the conflict, 
with General Abe Turner. And it was just incredible to me to 
see how sophisticated and the opportunities that you have to 
serve our service members.
    I can particularly remember visiting a National Guard unit 
in Afghanistan, and they weren't--they weren't really 
complaining, but they said the roller in front of their vehicle 
was not working properly. It missed a pin. And I said, ``Well, 
where's the pin?'' And they said, ``Well, we are looking into 
it.'' I said, ``okay.''
    The moment I got into the car--I think that Congresswoman 
Bordallo was there to make sure that I followed through 
appropriately--I immediately called back to General Turner. I 
said, ``Hey, please get the pin here to Khost as soon as 
possible.'' And so, again, the capabilities we have today--I 
want to thank you for advancing the technologies.
    And so, Admiral Peters, we have learned many lessons, as I 
have indicated, from the sustained equipment during the Iraq 
and Afghanistan wars, as well as--we conducted equipment resets 
in the global war on terrorism, following the periods of the 
highest operational tempo.
    So how do we ensure that we have incorporated these lessons 
and technologies and are applying them to the future, 
anticipated sustainment needs?
    Admiral Peters. Sir, I agree completely. The barcode 
technology is actually fairly simple to incorporate, and we 
generally established a dollar value for where that makes 
sense. The next step of that, discussed a little bit earlier, 
is incorporating that into our Navy ERP system so that we have 
end-to-end visibility for all of our assets. So tracked--so 
implementing barcode, easy; actually having complete inventory 
management is the next step.
    Mr. Wilson. Well, I just--the opportunities we have today 
are just unimaginable. I can remember, as a second lieutenant, 
being in charge of the supply room at the armory, and it was 
overwhelming to find anything.
    And so, on another positive note, we now proceed to 
Congresswoman Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    I think any three of you could answer it, I guess--my next 
question. How does the Air Force and the Navy assess the 
maximum executable level of depot workload when developing the 
budget request? And what are the primary factors that limit the 
ability to increase the maximum executable level?
    Admiral Moore. Well, the maximum executable level is based 
on how many people we use, the capacity in the yards to do 
work. And we want to prevent a Boise-like availability we have 
had in the past.
    So, when we determine the maximum funding, we look at a 
couple things. We look at the--what workload do we have, what 
capacity do I have in the yard. And then the big constraint is, 
how fast can I hire? That is really the driving factor.
    In today's environment, where the unemployment rate is at 
3.8 percent, as General Levy has articulated many times, we are 
in this competition for talent there. That is the thing that 
is--that is the biggest challenge for me today is how fast can 
I ramp up?
    And so, you know, when I go back and have this discussion 
about max executable, it is really--the discussion really gets 
down to, how fast can I hire and then train them to be ready to 
be the artisans that I need?
    Ms. Bordallo. General, is it the same thing for you, or?
    General Levy. Yes, ma'am. I would say it is very similar. 
We operate, you know, in a--from a fairly similar perspective. 
I would offer, from a strategic level, though, one of the 
things we have done over the past 20 or so years is that we 
have set an organic industrial base that is designed for 
optimal efficiency and perhaps not optimal effectiveness.
    So you heard Admiral Moore talk about, well, you know, if 
you--if you tell me you want me to do more, I am lead time away 
from hiring/training my workforce, because we have built a 
system that has just enough workforce for just the amount of 
work we want to do today.
    So somebody mentioned--or Admiral Moore mentioned a few 
minutes ago about surge capability and capacity, right? This 
really goes to, what do you want the organic industrial base to 
do? Do you want it to be sort of a just enough, just in time? 
Or do you want it to have some buffer, some--what I call 
elasticity in it so that, when the crisis occurs, you have got 
that expansion capability?
    And I would submit that you absolutely need that, because 
we won't have 6 months to prepare and build up for the next 
war. It is going to happen like that.
    And some would suggest that we are already in the early 
stages of conflict, right? Hybrid warfare--are we--you know, 
what is--when is cyber, versus kinetic sorts of conflicts--when 
does that mean that a conflict has occurred or is occurring? 
All of those things mean that we need to be--be prepared at a 
moment's notice.
    And the second piece of that, besides the hiring piece of 
that, is the supply chain piece of that. So I am going to put 
words in your mouth, and you tell me if I am wrong, Admiral, 
but I think we are probably on the same sheet of music here. 
But, even if we had the people--that, if I haven't given the 
indications and warning--the tipping and cueing, if you will, 
to the supply chain, to buy advance--you know, to advance-
purchase the materials to do the work, having the people 
doesn't really get us the readiness and capability that we 
think we--you know, that we expect or what the Nation expects 
from us.
    So I would say that our--our challenges are similar, but it 
is probably more a function of a system designed for optimal 
efficiency, based on many decades at war and challenges with 
funding. So it is more about efficiency than it probably is 
about effectiveness. I hope that answers your question.
    Ms. Bordallo. Yes, it does, thank you, General.
    And I have a question for you, Admiral Peters. Earlier this 
year, the Navy delivered a comprehensive plan for investing in 
the modernization of its shipyards. For the Fleet Readiness 
Centers and Air Logistics Complexes, do you have similar 
comprehensive plans to invest in the infrastructure and the 
capital equipment not just to support new weapon systems, but 
to also sustain the legacy platforms? And can you describe some 
of these initiatives and budget requirements?
    And I don't have much time left, so.
    Admiral Peters. Yes, ma'am. Just briefly, we are behind 
NAVSEA in this, and we are going to follow their lead and what 
they have done with the shipboard optimization plan.
    So, just last week--I mentioned that I have been on the job 
2 weeks, but, just last week, I ordered the baselining of all 
of our depot equipment--that is 71,000 pieces of equipment, 
starting with the first 800 critical items that--the production 
line is stopped if that equipment doesn't work.
    So we are going to start this year with the baselining, and 
then, the following year, we will put the modernization plan in 
place.
    Ms. Bordallo. Thank you. And General, do you also----
    General Levy. Yes, ma'am. So we do have a comprehensive 
plan for both infrastructure and capital investment. And, of 
course, as you know, we, by law, invest 6 percent of--of our 
earnings every year back into the infrastructure, if you will.
    So we put that both in the physical infrastructure and in 
the plant, property, and equipment. Good example would be F-22 
robotic coating. We now do that. We don't expose workers to 
that hazard. We go faster and we do it cheaper.
    And there are a variety of additional examples. We do it 
also in facilities. But the one thing I would tell you is that 
our 6 percent depot investment language does not allow us to 
buy MILCON [military construction] with that.
    We--and so I would suggest that, in ways of thinking about, 
how do we go faster and, by going faster, I go cheaper and 
deliver more readiness, I think that is an additional area that 
we should collectively explore.
    Ms. Bordallo. That is a very good point.
    And my time is up, so I yield back, Mr. Chairman.
    Mr. Wilson. Thank you, Congresswoman Bordallo.
    Congressman Austin Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General Levy, I want to go back to the data issue and if 
you could share your insights into the need for the services to 
own or obtain data rights and, specifically, how the link--that 
links to additive manufacturing.
    And then one of the questions in regard to that is, is it 
possible for the data to be both secure, as we know it has to 
be secure, but we also, at the depots we need it to be on 
demand. And so how do you balance that security with on-demand 
access to it?
    General Levy. So, sir, I am going to answer that question 
first and then go--kind of go back to the data rights piece. 
Whenever we think about doing something like this, we think 
about it not from a--just a technical perspective.
    We think about it from a cybersecurity perspective, 
because, ultimately, what I want to do is I don't want to print 
this at one of my Air Logistics Complexes. I want to send these 
ones and zeros downrange, to Guam, where I have got continuous 
bomber presence, and I want my folks to be able to print it out 
right there.
    And so, when we develop our technical data packages, we do 
it in a way such that we can ensure cybersecurity and a cyber 
pedigree. So, if I send you those ones and zeros downrange, you 
know and I know that the ones and zeros I sent you are the ones 
and zeros you got, so when you print this out, you will know it 
is exactly what you expected it to be. And so that is an 
absolutely--that is a nonnegotiable requirement of how we do 
this business.
    And I would suggest to you, because some have criticized 
the Department for its slow pace of adopting additive 
manufacturing, that that is a--that is an area where there's 
risk, and so it is an area where we proceed with caution to 
make sure we get it right. This is--it is not an area where we 
need to be arbitrary or capricious.
    With respect to intellectual property, what I would say is 
that we need better laws with respect to intellectual property. 
Intellectual property is the ink in an inkjet printer. You can 
get an inkjet printer, generally, for not a whole lot of money, 
but you are going to have to buy the ink, year over year over 
year.
    And I don't know that, necessarily, we, as the DOD, 
understand that, as we migrate to an information-age Department 
from an iron-age Department. And so our procurement laws, our 
procurement strategies, I don't think have adapted.
    And when we say intellectual property, some people, I 
think, believe that it is an all-or-nothing proposition. Most 
of the time, at least in my universe, we don't want all of the 
intellectual property to sell it on the open market or compete 
it.
    What we really want is enough of the intellectual property 
and the data rights so we can take care of what the Nation has 
asked us to take care of. And, quite frankly, a lot of 
companies lose interest in taking care of some of these weapon 
systems over time.
    Dean worries about the E-6, our only airborne nuclear 
command and control platform--lives at Tinker, is sustained at 
Tinker, but it is in his portfolio. We collectively worry about 
companies who may not want to take care of that anymore; B-52, 
KC-135, B-1, we could go on and on, but you get the message.
    And so having that intellectual property gives us the 
ability to do these kinds of things with--without having to 
reverse-engineer it. Thank you, sir.
    Mr. Scott. Admiral, so I have heard Secretary Wilson speak 
about this repeatedly, and--better contracting and owning our 
data when we pay to develop a system. Is the Navy pursuing 
this, as well, with the contracting? Is--I haven't heard as 
much from the Navy about it as I have heard from the Air Force.
    Admiral Peters. Yes, sir. Let me mention that, just having 
finished a tour as a program executive officer, I can tell you 
that technical data rights are a source of friction between the 
government and industry. And it seems to be getting worse.
    I think what we need to be careful of is that we don't 
overreach. And that is--I think has driven industry back into 
their corner a little bit and put up the barrier.
    So we absolutely need those critical pieces for--from a 
sustainment standpoint. We want to--we don't want reach into 
their intellectual property. I think that is when we are going 
to bring the lawyers out, if we are not careful.
    Mr. Scott. I would suggest to that, when the United States 
taxpayer pays for the development of a system, we have paid for 
the development of the data, and that issue needs to be handled 
up front.
    Our defense industrial complex is extremely important to 
our national security, and they deserve a square deal. The 
United States taxpayers deserve a square deal as well. And if 
it takes bringing out the lawyers to straighten this out, then 
that is just what it is going to take.
    But I cannot imagine anybody in private business paying to 
develop a system, and then turning around and--and not being 
able to service that system because the person you paid to 
develop it says, no, you don't own the system. I actually own 
what it takes to operate it. It is the key to the engine of the 
boat.
    With that, I yield the remainder of my time. Gentlemen, 
thank you.
    Mr. Wilson. Thank you, Congressman Scott. We now proceed to 
Congressman Steve Russell.
    Mr. Russell. Thank you, Mr. Chairman. And thank you for 
being willing to take a second round of questions.
    And, Admiral Moore, a couple weeks ago I was out looking at 
the great capacity of our shipyards in San Diego, and I was 
surprised to learn from the partners that are out there--NASSCO 
[National Steel and Shipbuilding Company], BAE, others--they do 
such fantastic work out there. It is a vital national asset. 
But I was surprised to learn from them there was an idle dock--
dry dock. And, you know, I am sure that there's reasons for 
that. They seemed a bit puzzled on why that dock would be 
sitting idle and couldn't be jumped with ships that were in 
waiting.
    But, for whatever reason, I realize deployments or 
extensions sometimes do that. Could you speak a little bit to 
that? Because, you know, we have very limited capacity with 
full-service shipyards like San Diego. How do you address those 
challenges, when--when you have an extension of a deployment 
and you have got a schedule, and yet you have got an empty 
dock, and there's not that many of those?
    Admiral Moore. Thank you for the question. So, absolutely, 
we have--you know, the dry-dock capacity that we have today is 
about--it doesn't have a lot of extra surge in it. So we ought 
to be making use of every dry dock we have.
    There's a graving dock in San Diego that the government 
owns that--there's money on the end for the priority list that 
we have--looking for this year, in 2019, to go upgrade that dry 
dock. I think that would be good. In this particular case, I 
think what BAE and NASSCO is referring to is, you know, a 
floating dry dock that they own.
    The maintenance schedules themselves are cyclic. And so, 
sometimes, you know, we have periods of time where we just 
don't have a requirement to use the dry dock. That is going to 
change, going forward, you know, as we grow the size of the 
Navy and the littoral combat ships have additional docking 
requirements associated with it.
    So, while there may have been a dry dock empty in San Diego 
right now, that is--that is generally not the case. And we are 
generally in a situation where we are looking to find more 
capacity than less.
    So I certainly, you know, agree with you up front that, you 
know, the BAEs and the NASSCOs of the world, our private sector 
partners in the industrial base management, are absolutely 
critical to our ability to get that done. So where we are not 
using that capacity, we need to look to do that.
    Mr. Russell. Yeah, thank you. And I appreciate that, and I 
know that you all are sensitive to that. Just, if there's any 
way, you know, that we could help--because I know, sometimes, 
between the base shipyards and then, you know, the contracted 
shipyard--or dock capacity--and we certainly don't want 
anything to be sitting idle.
    General Levy, the commercial industry has developed quick 
depot turnaround times for the airline industry. Are there ways 
to leverage industrial practices to improve similar 
turnarounds? And I know we have talked about data, and I agree 
wholeheartedly with all of that. We have got to come up with 
some legislation to help--and future procurement. But, with 
regard to the other things, you know, the best practices on 
depot-level turnaround, how can we leverage some of those best 
practices?
    General Levy. So, sir, you would be, I think, happy to know 
that we have a robust engagement with the commercial aviation 
industry. They actually come and learn from us, and we learn 
from them. In fact, about 6 weeks ago, the president of Delta 
TechOps was at my headquarters at Tinker Air Force Base in 
Oklahoma City. It was the first time he had been there, and 
some of his other people had been, over the years. And it was 
the first time he had been there. He said, wow, you guys do 
this better than we do. And specifically, he was talking about 
jet engine repair, because that is the jet engine center of 
excellence for our Air Force.
    So we--and we send people to the commercial industry to 
leverage best practices. So there's a lot of back and forth 
dialogue by which we can either adopt their technologies, and/
or their management practices. But I would say we are very 
competitive, very competitive. And I am--on any day, I will put 
my folks up against the commercial industry. I think where we 
have some challenges, though, are some of the laws and rules 
about how we fund our organic facilities.
    For example, a commercial airline would never bring an 
airplane in for overhaul unless it had all the parts, and then 
some, that it thought it might need, because that airplane, not 
carrying passengers, is not making money. And so they are 
willing to take a little risk on spare parts, if you will, to 
have them sitting there, waiting, when the airplane comes in.
    We are subject to the bona fide need rule, which then 
limits us in terms of how much we can sort of lean into it. I 
run--although I run a $16 billion a year P&L [profit and loss], 
I am still constrained by some of these laws and policies. 
Frankly, I would take a little bit of financial risk and I 
would bring some parts on board and have them sitting there, 
waiting, when the airplane showed up. And, even if I didn't 
sell them today or use them today, I might use them on the next 
plane or the plane after that.
    But I have to be careful, because I either violate the bona 
fide need rule, or the GAO comes in and tells me that I have 
got too many parts sitting around, and then I am forced to 
divest them and buy them again later, and then Congress tells 
me that I am irresponsible with funding.
    So there are some things there that I think we could do 
through policy and law that would allow us, collectively, to 
accelerate the velocity by which we bring things in, get them 
serviced and back out in the hands of the warfighters.
    Mr. Russell. Thank you. And I yield back my time.
    Mr. Wilson. And thank you, Congressman Russell.
    We now proceed to Chairman Mike Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    I just wanted to follow up on my last question with the 
other two witnesses about critical skills that you are 
concerned about us losing in the industrial base, other than 
the high-tech workforce.
    Admiral Moore. Yes, sir, thanks. You know, we tend to focus 
today--and the young kids come in on the STEM world and they 
all want to be IT software. I would sort of go back to 
something General Levy mentioned earlier.
    You know, a lot of the work that we do in the depots, and 
particularly in ship repair--it is blue-collar work, and I 
think we have lost some of that tradition of--in the shipyards.
    I have, you know, been around shipyards most of my naval 
career and there's a proud tradition of second-, third-
generation folks that are in the yards. So, you know, what I 
worry about is not just the IT folks and the people that are 
doing software, but I need pipefitters. I need electricians. 
You know, I need welders. And, you know, that is a trade that--
you know, you are doing great work as a--in that particular 
field. I think we need to be encouraging the work--the young 
kids today that not everybody has to be a software engineer, 
not everybody has to be white-collar, that there is a real 
national need for these.
    And that hands-on mechanic can do things that--as an 
artisan that nobody else can do is really a challenge in the 
shipyards. And I have more challenge finding those qualified 
folks, sometimes, than I do, you know, the other end of the 
spectrum.
    Mr. Rogers. Yeah, it--it is a challenge, and--and it goes 
back to this aging workforce issue, too, because you are 
correct: There's an art to some of this. We--in my 
jurisdiction, in my committee, we have the nuclear weapon 
systems. And we have people working at places like Pantex in 
Texas that--they have developed an art as to how to work on 
these nuclear weapons that, when they retire, we don't know how 
we are going to replace them. It is a--it is a real, critical 
skill that--that we are confronting, and we don't know what--
what the answer is.
    But what about you, General?
    General Levy. So thank you, sir. I would offer--first of 
all, it is a national conversation about--about what we value 
from our young men and women. And rarely do we hear a national 
conversation about, hey, go to--go to a trade school and learn 
how to do these--some of these skill sets that we are talking 
about. It is, go to college, get a degree, et cetera.
    And so part of this is about, what do we value as a nation 
and, by extension, what do we tell our young men and women? If 
you have ever tried to get your house repaired, a plumber to 
come to your house, get your car fixed, any one of these 
thousands of things, you know exactly what I am talking about.
    These skill sets that we have in our portfolios are 
exquisite, and they are very rare, and they are essential to 
the national defense. I would invite you to come out to Hill 
Air Force Base. And you talk about nuclear weapons. I sustain 
two-thirds of the nuclear triad in my command.
    Come out to Hill Air Force Base and watch those people 
perform maintenance on an ICBM rocket motor and slice it in 
half for aging surveillance testing, or watch them do the work 
on a transporter-erector launcher that actually puts the ICBM 
down in the hole, and you will see that that is incredibly 
skilled work, but it doesn't require a 4-year degree.
    And, as Admiral Moore said, that workforce is starting to 
age, and we have a very difficult time recruiting them. Lay on 
top of it some of the human capital system things that we have, 
and lay on top of that an economy where there's fairly low 
unemployment, and what you have is a building case for a 
significant problem that we don't want to find ourselves in.
    Mr. Rogers. Yes. Well, we have a challenge as a nation to 
try to do a better job of communicating to our young people and 
their parents that not everybody needs a 4-year degree.
    I am--I have got a liberal arts education. I don't have 
anything against it. But the fact is, a lot of these kids go to 
a 4-year school and get a--a bachelor's degree and they are 
lucky if they can get a job paying $30,000 or $40,000 a year, 
whereas, if they had gone to a 2-year community college and 
gotten a trade skill--welding, whatever--they can start off 
making a lot more than that and have potential to make a lot 
more, and there are more job opportunities. But there's a 
stigma that we have got to get away from, that shouldn't be 
there, that that is not a good path to pursue. So I am 
interested in how you confront that.
    I have Anniston Army Depot in my district and one of the 
things they have done is they set up a training program where 
the high schools will send people to come there to learn how to 
be a welder or whatever and they are guaranteed a job in the 
depot if they go through that program. And they have really 
dealt with a lot of their shortfalls, as far as critical 
skills, through that program.
    General Levy. We have very similar programs across my 
command. They--the challenge, really, is young men and women--
young men and women who want to go into that. And there is just 
not enough of them.
    And, in the aerospace industry in particular, as the 
economy recovers and the domestic airlines recover and the 
international airlines recover, there is a large demand signal 
pulling those people away from government service to those 
other parts of the industry.
    And so, whether you are a jet engine mechanic or--or 
something else, it is very difficult to find and keep them. And 
that is, sir, that is art. It is--I mean--and, if you have ever 
seen a pipefitter or somebody fix a bracket on a B-52 or an F-
16, that is art. It is an exquisite piece of craftsmanship that 
is the underappreciated key to our combat capability in the 
Nation.
    Mr. Rogers. Well, that is my point. The private sector's 
facing the same challenge you all are facing, is too many kids 
are going to college instead of getting these trade skills. And 
we have got to find a way to help educate young people that 
this is a path they ought to be considering.
    I am sorry. I went over time. But thank you for your 
service and thank you for being here. I yield back.
    Mr. Wilson. And Chairman Rogers, thank you. And what an 
excellent point you are making.
    I would now proceed to Congressman Mike Gallagher, a very 
appreciated veteran himself.
    Mr. Gallagher. Thank you, Mr. Chairman.
    I would like to commend you on what I think is a--one of 
the most productive hearings we have had. This has been a great 
conversation on a topic that I tend to think is probably the 
most important one that no one's really paying attention to. 
But perhaps this suggests that we could get more attention paid 
to it.
    I would just like to go back to the issue of surge 
capacity, which we talked about briefly, and maybe start with 
you, General Levy. Just, how do I put this--I mean, maybe, in 
your opinion, what has changed, when it comes to the defense 
industrial base, from the days of Freedom's Forge to the 
present? What vulnerabilities have sort of crept into the base 
that didn't exist back then, that would complicate our ability 
to surge?
    General Levy. Thank you, sir.
    The first thing I would tell you is years of budgetary 
uncertainty and budgetary pressure, right? And so that becomes 
a bit of a corrosive effect over time. You have heard our 
service chiefs and secretaries talk about the corrosive nature 
of sequestration.
    And we typically think about that in our uniformed force. 
But this is the foundation upon which our--our combat readiness 
rides, for all of us, right? If we get this wrong, it doesn't 
matter how many men and women we have in uniform, because we 
won't be able to project power.
    The second piece of that is, somewhere along the way, we 
lost--first of all, we are not as--an industrialized nation. 
Our economy has shifted. That is another component to it. The 
economy has globalized, and I don't--while we realize that from 
an economic perspective, I don't know that, necessarily, from a 
defense sustainment perspective, we--we have necessarily caught 
up with that.
    And then we have really migrated towards efficiency, over 
combat effectiveness--or effectiveness in many of our 
structures. And then, lastly, I would offer that perhaps we 
fail to appreciate how much of the supply chain is globalized, 
in terms of the materials it takes to make modern weapons 
systems.
    And so, when you put all of those things into the recipe, I 
think that is what has caused us to perhaps lose some of our 
focus. And then, lastly, and I see this occasionally in the 
Department, the concept that logistics and sustainment is a 
cost center--in fact, if you read some of the literature, 
occasionally it will say, well, we have got to cut the cost of 
logistics and sustainment. Okay. That is true, but the 
implication is that, if I cut the cost, I will still get the 
same readiness, but I just won't spend as much money. I would 
offer that logistics and sustainment is a combat effect. If you 
get it right, you could--you can impose your will on the enemy. 
If we get it wrong, the enemy will impose his will on us.
    Mr. Gallagher. I appreciate that. And I pose the same 
question to the Navy. But perhaps maybe touch, if you would, on 
sort of the decline of commercial shipbuilding and how that 
relates to naval shipbuilding, as well.
    Admiral Moore. Exact--I was going to touch on that exactly. 
I think we still have--we somewhat have this nostalgic view 
that, you know, World War II happened, Pearl Harbor happened, 
and in 2 months we were--ramped up the machine.
    If you go read the book, that is not the case. It took us 
years, even back then. And that is with unemployment at 16 
percent and a--and a Nation that was hungry for jobs. So, 
today, you are going to have that challenge. You know, one of 
the things that has changed over the years is the number of 
private yards that build ships for us today has significantly 
gone down over the last, you know, 20 to 25 years.
    We were at 17 or 18 yards that could build naval ships for 
us. Now, we are down to probably--I don't know about the exact 
number, but probably five or six core yards. And the same thing 
goes for commercial shipbuilding.
    Most of that has been--you know, is overseas. You know, 
most of the commercial shipbuilding now, other than the things 
that, you know, we have to follow by law, that is done 
overseas. That is going to be a real challenge for us. And 
then, getting back to the conversation we just had with 
Representative Rogers is, you know, the workforce today. Where 
are you going to go find the people that have kind of those 
blue-collar artisan skills is really going to be a challenge. 
So I think the combination that--you know, the industrial base, 
as it exists today, looks completely different than it did 50, 
60 years ago. A lot of that work is done overseas.
    The work, also, on the platforms, is a lot more 
complicated. We are not talking about building Liberty ships in 
90 days. We are talking about warships that are a lot more 
complicated. So there's a--there's a number of things here that 
are going to complicate that problem for us.
    I will say, though, that the American worker and the 
American people, you know, when--when the challenges arise, 
they have always risen to the challenge in the past. I have no 
doubt that we would do that going forward, sir.
    Admiral Peters. Nothing, really, to add other than that if 
you look at it from a constraints standpoint, I think we have 
the tooling that we need to surge, but it is those other 
aspects. Can we hire the people to do the work? And can we get 
the supply chain predictive enough?
    Mr. Gallagher. I appreciate that. I am running out of time.
    I just would say, I think, particularly as the Pentagon 
finalizes its response to the White House directive on a review 
of the industrial base, it might be useful for Congress, I 
think, to do something similar, a parallel effort in a sort of 
systematic way, both to analyze that report and also kind of do 
our own analysis of the industrial base, kind of as a follow-on 
to this hearing.
    So thank you for getting that conversation started with us 
today.
    Mr. Wilson. And thank you, Congressman Mike Gallagher.
    And thank each of you, as witnesses today. This--I--I agree 
with the member from Wisconsin, Congressman Gallagher. This has 
been a very helpful hearing, and I just appreciate everyone 
being here and the participation--record participation by 
members who are really dedicated to work with you on behalf of 
the American military.
    I also want to thank Drew Warren for his service. And with 
this, we are adjourned.
    [Whereupon, at 10:51 a.m., the subcommittee was adjourned.]

     
=======================================================================


                            A P P E N D I X

                             June 14, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 14, 2018

=======================================================================

 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 14, 2018

=======================================================================

      

      

                  QUESTIONS SUBMITTED BY MR. COURTNEY

    Mr. Courtney. A recent press report indicates that Assistant 
Secretary Geurts is interested in developing an annual 30-year repair 
plan alongside the 30-year shipbuilding plan.
    Do you agree that the Navy, Congress, and our shipyards would 
benefit from having a long-term, comprehensive ship maintenance plan?
    Do you believe that planning ahead would provide both the public 
shipyards and the private shipyards with increased predictability so 
they can better manage their workforce and workload?
    If Congress were to require such a plan, what challenges do you 
foresee that we should take into account?
    Admiral Moore. Yes. The Navy supports the need for a long-term, 
comprehensive ship maintenance and modernization plan. Congressional 
language is not required as efforts have already commenced to develop a 
plan that will provide a 30-year outlook of naval vessel maintenance 
and modernization requirements. In addition to workload requirements, 
the plan will also examine the infrastructure required in both the 
Navy's public shipyards and those owned by industry to ensure an 
increasing force structure has the industrial capability and capacity 
required to sustain it.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. CARBAJAL
    Mr. Carbajal. The recently published FY2018-2019 National Defense 
Business Operations Plan, a supplement to the 2018 National Defense 
Strategy stated that ``[t]he Department's lethality and readiness are 
not just a function of our service members. DOD's civilian workforce is 
essential to sustaining the viability and capabilities of the All-
Volunteer Force--providing critical equipment maintenance . . . 
logistics and engineering expertise.'' Can you elaborate on the value 
of the civilian workforce to the Department's missions?
    Admiral Moore. NAVSEA cannot execute its mission without highly-
skilled civilian employees. NAVSEA conducts the research, design, 
acquisition, maintenance, modernization, and life cycle support for all 
the Navy warships and associated combat systems. The Navy's civilian 
workforce is the force behind the fleet and integral to the Navy's 
ability to maintain a technological advantage over its adversaries. 
Nearly 32,000 of the 210,000 Navy civilians work directly for NAVSEA 
either at one of the 10 Warfare Centers, four Supervisors of 
Shipbuilding, multiple Headquarters directorates and Program Executive 
Offices, or subordinate field activities. Additionally, there are more 
than 39,000 women and men at NAVSEA's four Naval Shipyards and six 
Regional Maintenance Centers who report for accounting purposes to 
Fleet Commanders.
    Specific to the Naval Shipyards, we are currently working to grow 
the workforce to 36,100 full-time equivalents by Fiscal Year 2020 to 
create the organic capacity required to execute the planned maintenance 
workload and to mitigate future workload carryover. This workforce 
consists of highly skilled tradespersons and engineers who are 
available to deploy anywhere in the world to perform maintenance on our 
Nation's most strategic military assets in addition to executing the 
Navy's current maintenance and modernization work on our nuclear-
powered aircraft carriers and submarines. Maintaining and growing this 
organic workforce is essential to delivering ships and submarines on 
time to the fleet for the best value to the taxpayer.
    Personnel alone will not allow us to deliver these critical 
warships back to the fleet on time--our people need modern facilities. 
The Naval Shipyards were built more than a century ago and designed to 
build conventional-powered ships. They were not built to maintain the 
complicated platforms of today's Navy. Therefore, we are executing the 
Shipyard Infrastructure Optimization Plan that will recapitalize our 
dry docks, optimize the layout of our shipyards to streamline work, and 
make the required investments in capital equipment. When the plan is 
complete, we will have the Naval Shipyards our Navy needs.

                                  [all]
</pre></body></html>
